      Department of Homeland Security




    Costs Invoiced by McKing Consulting Corporation 

        Under Order Number HSFEHQ-05-F-0438 





             American Recovery and Reinvestment Act of 2009



OIG-12-106                                                    July 2012

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Was hington. DC 20528 1 www.oig.dhs.gov


                                 JUL 30 2012
MEMORANDUM FOR:               Catherine Patterson
                              Branch Chief
                              Assistance to Firefighters Grants Program Office
                              Federal Emergency Management Agency

FROM:                        Anne l. Richards      ~;('~
                             Assistant Inspector General for Audits

SUBJECT:                     Costs Invoiced by McKing Consulting Corporation Under
                             Order Number HSFEHQ·05· F·0438

Attached for your action is our final report, Costs Invoiced by McKing Consulting
Corporation Under Order Number HSFEHQ-OS-F-0438. We incorporated the formal
comments from the Office of Policy and Program Analysis, Federal Emergency
Management Agency (FEMA) in the final report .

Th e report contains three recommendations for FEMA to reso lve $154,535 of
questionable costs and to improve its administration of the contract. The Office of
Policy and Program Analysis concurred with all recommendation s. As prescribed by
Department of Homeland Security Directive 077· 1, Follow·Up and Resolution s for the
Office of In spector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagree ment, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
su pporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations
will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
cop ies of our report to appropriate congressional committees with oversight and
appropriation re spo nsibility over the Departm ent of Homeland Security. We will post
the report on our website for publi c dissemination .

Please call me with any questions, or your staff may contact John E. McCoy II,
Deputy Assistant Inspector General for Audits, at (202) 254·4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 3

              Staffing Education and Experience ......................................................................... 3 

              Storage Costs .......................................................................................................... 4 

              Recipient Reporting ............................................................................................... 4 

              Recommendations ................................................................................................. 6 

              Management Comments and OIG Analysis ............................................................ 7 


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology ............................................. 9
              Appendix B:           Management Comments to the Draft Report .............................. 11
              Appendix C:           OIG Analysis of Employees Billed to Task Order Who Did Not Meet
                                    Education and Employment Experience Standards and McKing
                                    Comments ..................................................................................... 13
              Appendix D:           Major Contributors to This Report ............................................... 19
              Appendix E:           Report Distribution ....................................................................... 20

   Abbreviations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              FTE                   full-time equivalent
              G&A                   general and administrative
              GSA                   General Services Administration
              IT                    information technology
              OIG                   Office of Inspector General
              OMB                   Office of Management and Budget




www.oig.dhs.gov                                                                                                                OIG-12-106

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Federal Emergency Management Agency (FEMA) awarded a task order to McKing
   Consulting Corporation to assist in administering its grants to firefighters. FEMA
   subsequently modified the order to include the Fire Station Construction Grants
   authorized by the AmericanfRecoveryfandfReinvestmentfActfoff2009, as amended, and
   added $721,000 in funds from the AmericanfRecoveryfandfReinvestmentfActfoff2009, as
   amended, to help finance the modification. The total amount of the task order was not
   to exceed $49,197,425. McKing Consulting Corporation invoiced costs of $42,361,519.

   We conducted our audit to determine whether invoiced costs were allowable, allocable,
   and reasonable according to the task order and applicable Federal requirements.

   We questioned $154,535 paid to McKing Consulting Corporation. We determined that
   costs of $143,173 invoiced for labor were questionable because certain individuals did
   not qualify for the rates at which they were billed. In addition, we concluded that costs
   of $11,362 invoiced for storage exceeded the storage costs incurred by McKing
   Consulting Corporation. Also, we determined that McKing Consulting Corporation
   complied with the AmericanfRecoveryfandfReinvestmentfActfoff2009, as amended,
   requirement for submitting recipient reports; however, the reports included inaccurate
   and unsupported information.

   FEMA agreed with our three recommendations to resolve the questioned costs,
   examine the qualifications of other staff to determine whether billing rates were
   appropriate, and decide whether McKing Consulting Corporation should resubmit its
   final recipient report.




www.oig.dhs.gov                                1                                      OIG-12-106

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   FEMA awarded a task order, No. HSFEHQ-05-F-0438, to McKing Consulting Corporation
   (McKing) on July 1, 2005, for supervision, labor, equipment, and materials necessary to
   support the fiscal year 2005 Assistance to Firefighters Grant Program and Staffing for
   Adequate Fire and Emergency Response Act Grants. Under this order, McKing technical
   assistance staff supported the FEMA program offices, maintained the program websites,
   developed and distributed educational tutorials, conducted peer review panels, and
   provided administrative and technical support. The order’s period of performance
   included a base year (July 2005 to June 2006) and 4 option years extending through June
   2010. FEMA subsequently extended the period of performance through December 2010.
   The cost ceiling for the order was $49,197,425. McKing invoiced costs of $42,361,519.

   This order was awarded on a time and materials basis. McKing recorded the hours that
   its staff worked on tasks authorized under the order and billed FEMA on negotiated
   rates based on rates published in McKing’s Authorized Federal Supply Services and
   Products Schedule Pricelist (General Services Administration (GSA) Schedule). McKing’s
   GSA Schedule sets forth its job titles, staff descriptions and qualifications, and applicable
   billing rates. The order also authorizes McKing to bill materials at cost plus applicable
   general and administrative (G&A) costs. McKing negotiates G&A rates with the U.S.
   Department of Health and Human Services.

   On February 17, 2009, Congress enacted thefAmericanfRecoveryfandfReinvestmentfActf
   off2009f(Recovery Act), as amended, which included an appropriation of $210 million to
   FEMA for competitive firefighter assistance grants to modify, upgrade, or construct non-
   Federal fire stations. The Recovery Act authorized FEMA to use up to 5 percent of the
   appropriation for program administration. Using funds from this provision, FEMA
   modified the 2005 task order with McKing to obtain additional program support services
   to accelerate the award of the fire station construction grants. This modification
   (No. P00010) totaled $888,765 and was financed in part with $721,000 of Recovery Act
   funds. With McKing’s assistance, after evaluating approximately 6,000 grant
   applications, FEMA awarded 116 grants totaling $207 million.




www.oig.dhs.gov                                  2                                       OIG-12-106

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Audit
   Of $42,361,519 in invoiced costs, we questioned reimbursement of $154,535, which
   included $143,173 billed for staff who did not qualify for the invoiced rates and $11,362
   in storage costs that exceeded McKing’s incurred costs. McKing complied with
   requirements to submit recipient reports, but the reports included inaccurate and
   unsupported information.

           Staffing Education and Experience

           We questioned $143,173 of labor costs because McKing charged time to the task
           order for certain individuals who did not meet the education and employment
           experience qualifications published in McKing’s GSA Schedule. Included as part
           of the qualifications are the education levels and the employment experience
           required for the positions. McKing billed approximately 220 individuals’ time to
           the task order.

           We reviewed the resumes and personnel file information of 45 individuals
           McKing charged to the task order. We found that McKing billed six (13 percent)
           individuals’ time to staffing categories for which the individuals did not meet the
           education/employment experience standard in McKing’s GSA Schedule (see
           appendix C for our analysis and McKing’s comments). For example, in July 2009
           McKing billed FEMA for a subcontracted Application Programmer-V who did not
           meet the labor experience or education requirement in the GSA Schedule.
           According to the schedule, this position requires a bachelor’s degree and 12
           years of experience or a master’s degree and 10 years of experience. The
           individual had an associate’s degree in computer programming and 7 years of
           information technology (IT) experience before coming to work for the
           subcontractor in February 2006. This combination of education and experience
           qualified the individual for the position of Senior Website Developer. For 3 years
           prior to July 2009, McKing charged this individual’s time to the task order as a
           Senior Website Developer.

           A McKing official explained that for a labor category with a bachelor’s degree
           standard, McKing reduces employment experience requirements by 2 years for
           individuals who have a 2-year associate’s degree. The official also said that
           McKing accepts 2 years of college education as equivalent to an associate’s
           degree. We accept the associate’s degree justification because a degree is
           awarded upon completion of a course of study. However, we do not agree that
           2 years of college study equates to an associate’s degree. A degree requires

www.oig.dhs.gov                                 3                                      OIG-12-106

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           completion of a core curriculum, whereas 2 years of college study may merely
           represent completion of general study requirements.

           According to McKing, FEMA granted a waiver of the GSA Schedule education and
           employment experience requirements. According to a McKing official, staff from
           the prior contract were allowed to work in the same labor category on this task
           order to ensure continuity even if they did not meet the requirements. FEMA’s
           Contracting Officer was unable to locate such a waiver in the contract file.

           Storage Costs

           Under Modification P00007, McKing was to relocate and provide secure storage
           for official grant files offsite for 19 months. McKing proposed and billed rental
           costs for the storage space at $2,523 per month for a total of $47,931. Storage
           space rental is considered a direct cost. For the 19-month period, McKing
           received rental credits and adjustments of $10,260. McKing did not pass on the
           cost savings to FEMA. Additionally, McKing’s G&A costs were charged to the task
           order as a percentage of its other direct costs. As a result, McKing overcharged
           FEMA $1,102 of G&A costs. We questioned the overcharge of $11,362.

           Recipient Reporting

           Section 1512 of Division A of the Recovery Act requires recipients of Recovery
           Act funds to report quarterly to the Federal Government on various data
           elements, such as the amount of funds received, project description(s) and
           status, and an estimate of the number of jobs created and retained. These
           reporting requirements were incorporated into the Federal Acquisition
           Regulation as Subpart 4.15—American Recovery and Reinvestment Act –
           Reporting Requirements. FEMA’s Modification P00012 required McKing to
           follow the Recovery Act reporting requirements. As required, McKing submitted
           reports for the third and fourth quarters of calendar year 2009 and first and
           second quarters of calendar year 2010 and designated the second quarter report
           as its final recipient report. We reviewed 16 data elements from McKing’s 2010
           first and second quarter reports and identified seven exceptions, which are
           discussed below.

           Jobs Reported

           McKing underreported jobs for the first quarter of calendar year 2010 by 4.74
           jobs and over-reported jobs for the second quarter of calendar year 2010 by 1.36
           jobs. McKing representatives said that they reported two jobs each quarter,

www.oig.dhs.gov                                4                                     OIG-12-106

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           which represented the two additional staff hired. Office of Management and
           Budget (OMB) criteria state that the number of jobs reported should be
           expressed as “full-time-equivalents” (FTEs), where:

                  Recovery Act Funded Hours Worked (Qtr n)
                                                                 = FTEs.
                    Hours in a Full-time Schedule (Qtr n)

           Based on submitted billings, we determined that McKing should have reported
           6.74 and 0.64 jobs for the first and second quarters of calendar year 2010,
           respectively.

           Subawards to Organizations/Individuals

           McKing personnel incorrectly entered its subagreement with the Cabazon Group
           as a subaward to an individual, which resulted in a duplicate reporting of the
           subagreement. Recovery Act recipient reports include information on the
           number and amount of subawards to organizations and to individuals. The
           reporting tool automatically captures and reports the total number of subawards
           to organizations based on the information entered into the Federal reporting
           website (FederalReporting.gov) by the prime recipient. Recipients are required
           to enter the total number of subawards to individuals into this website. As a
           result, McKing incorrectly reported its subcontract agreement with the Cabezon
           Group as two subcontract agreements.

           Subaward Amount

           The amount of McKing’s subcontract agreement with the Cabezon Group was
           incorrectly reported. McKing initially reported $347,216 as the subaward
           amount to the Cabezon Group for both entries. Modification Number 10 to the
           subcontract agreement between McKing and the Cabezon Group increased the
           subcontract agreement amount by $345,709 for fire station construction grant
           peer review support. McKing used Recovery Act funds received from FEMA to
           fund Modification Number 10. McKing identified the error and revised the
           amount under Subaward Amounts to Individuals in its submission of the 2010
           first quarter recipient report, but did not correct the amount in the information
           for its subrecipient organizations submitted to the Federal reporting website.




www.oig.dhs.gov                                5                                       OIG-12-106

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Subaward Date

           McKing incorrectly reported July 23, 2009, as the subaward date. The effective
           date of Modification Number 10 discussed above is September 28, 2009.

           Required to Report Top Five Highly Compensated Officials

           McKing reported “No” to the data element asking whether the prime recipient
           and subrecipients were required to report the names and total compensation of
           the top five most highly compensated officials. OMB’s RecipientfReportingfDataf
           Model, which expounds the specific data elements that Memorandum 09-21
           requires to be reported, states that the recipient is to report “Yes” if the
           recipient and/or its subrecipients meet specific criteria. McKing representatives
           were unable to provide documentation to substantiate that it did not have to
           report on this data element, and said that it reported “No” because it did not
           have the information available at the time it submitted the calendar year 2009
           third quarter recipient report.

           OMB Memorandum 10-34, UpdatedfGuidancefonfthefAmericanfRecoveryfandf
           ReinvestmentfAct,fstates that the recipient or Federal agency may initiate a
           change to a prior report if the Federal agency determines that the change is
           “material.” The guidance further states that changes to prior reports may not be
           initiated for the “Number of Jobs” field. As a result, McKing can correct the
           errors related to the subaward and requirement to report highly compensated
           officials, but will not be able to correct the “Number of Jobs” errors.

           Recommendations

           We recommend that FEMA’s Contracting Officer:

           Recommendation #1:

           Resolve the $154,535 of questioned costs.

           Recommendation #2:

           Review the qualifications of the other staff billed by McKing on the task order
           and determine whether additional billing adjustments are warranted.




www.oig.dhs.gov                                 6                                      OIG-12-106

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #3:

           Review McKing’s recipient reporting errors and determine whether a corrected
           final recipient report should be resubmitted.

           Management Comments and OIG Analysis

           FEMA provided formal comments to our draft report, which are included in
           appendix B.

           FEMA Comments to Recommendation #1

           FEMA stated that it will “allow McKing Consulting Corporation to return the
           excess funds [$143,173] associated with the employment of staff that did not
           meet the education and employment experience qualifications as published in
           the GSA Schedule.” FEMA also said it will “require McKing Consulting Corporation
           to return the $11,362 in costs billed for grant file storage as McKing received
           rental credits and adjustments but did not pass the costs savings on to FEMA.”

           OIG Analysis

           Although concurring with the recommendation, FEMA did not provide an action
           plan including target dates and the names of responsible officials for recovering
           the agreed-upon questioned costs. Therefore, the recommendation is
           unresolved and open.

           FEMA Comments to Recommendation #2

           FEMA stated that it will “request that McKing Consulting Corporation provide a
           report on the qualifications of other staff billed on the task order to determine if
           they meet the education and employment experience qualifications.”

           OIG Analysis

           Although concurring with the recommendation, FEMA did not provide an action
           plan including target dates and the names of responsible officials for completing
           the analysis of qualifications and taking any further corrective actions.
           Therefore, the recommendation is unresolved and open.




www.oig.dhs.gov                                 7                                        OIG-12-106

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           FEMA Comments to Recommendation #3

           FEMA said that it will request that McKing provide a corrected final recipient
           report.

           OIG Analysis

           Although concurring with the recommendation, FEMA did not provide an action
           plan including target dates and the names of responsible officials for obtaining
           the corrected final recipient report. Therefore, the recommendation is
           unresolved and open.




www.oig.dhs.gov                                 8                                      OIG-12-106

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of the audit was to determine whether the costs invoiced by McKing were
   allowable, allocable, and reasonable according to the task order and applicable Federal
   requirements. Our audit covered costs of $42,361,519 for a contractual period July 1,
   2005, to December 31, 2010. Our tests and procedures included the following:

       •	 Reviewing the task order and modifications between FEMA and McKing, the
          Recovery Act, FEMA program guidance, and the Federal Acquisition Regulation

       •	 Interviewing McKing and Cabezon Group officials to obtain an understanding of
          the order’s scope of work and McKing’s accounting processes

       •	 Interviewing FEMA and GSA contracting officials to obtain an understanding of
          the scope of work and GSA Schedule contracts

       •	 Conducting fieldwork at McKing and the Cabezon Group

       •	 Examining McKing timesheets, payroll ledgers, accounting documentation,
          vendor invoices, payment documents, and personnel files

       •	 Selecting a representative sample of salary and other payments totaling
          $6,602,636 from the 70 invoices submitted by McKing for reimbursement to
          assess eligibility for reimbursement

       •	 Reviewing recipients’ quarterly reports McKing submitted to the Federal 

          Government and supporting documentation 


   We conducted this performance audit between July 2011 and April 2012 pursuant to the
   InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence

www.oig.dhs.gov                               9                                  	    OIG-12-106

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              10                                    OIG-12-106

                                    OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                             u.s.    D ~pR rhn~nl   of   Hom~1D.n<l Sto~u rily
                                                                                             \VashinI:10J1. DC 20472




                                                        JUN 2 1 <1112

              MEMORANDUM FOR,                      Anne L. Richards
                                                   Assistant Inspector General for Audits
                                                   Office of Inspector General

              FROIVlo                 1"..{)"\--   David 1. Kaufman     v\L~ ~
                                      '\5          Director
                                                   FEMA Office of Poli ey and Program Analysis

              SUBJECT,                             Rcsponse to O IG Draft Rcport, Costs invoiced by Mc.King C011Suiting
                                                   Corporation Under Order Number HSFEHQ-05-F-0138 With the
                                                   Federal Emel-gellcy Mcmagemelll Agency


              The federal Emergency Management Agency (FEMA) appreciates the opportunity to review and
              respond to the Department of Homeland Security (DHS) Office of Inspector General (OIG) Draft
              Report, C(J.<;[s Invoiced by McKi/lg Consulting COIporafion Under Order Nwnber HSFEHQ-05-F-
              0438 With the Federal Emergency Managem ent Age/lCY (OIG Job Code ll-135-AUD-FEMA). As
              noted in our resIXlnses to your recommendations, below, FEMA is continuing to work to resolve the
              issues identified in the audit and we are putting in place a process to avoi d simi lar problems in the
              future.

              Recommendation # 1: Resolve the $ 154,535 of questioned costs.

              FEMA RC5ponse: FEMA concurs wilh this recommendation to resulve the questioned costs of
              SI54 ,535. Upon review o f the OIG' s draft report, FEMA will allow McKing Consulting
              Corporation to return the excess funds associated with the employment of staff that did not meet the
              education and employment experience qualifications as published in the GSA Schedule. FEMA
              concurs with the OIG 's determination that 2 years of college study does 110t equate to an associate's
              degree. Based on this detennination, McKing should have charged Q lower fee for the staff
              provided. The lower fee would have resulted in a $ 143, 173 cost savings. This amount must be
              returned to the federal government. Further, FEMA staff wi ll require McKing Consulting
              Corporation to return the S 11 ,3 62 in costs billed for grant file storage as McKing received rental
              credits and adjustments but did not P<Jss th e aJst savings on to FEMA. This includes the S 1,102 in
              overcharged General & Administrative costs charged to the task order relatcd to the storage costs.

              Within 30 days of receipt of the final report, FEMA will request that the FEMA Finance Center
              notify the grantee that S I 54,535 is due to the federal government and inform the grantee about
              FEMA 's debt collection procedures. FEMA will also work with its Contracting Officer's Technical
              Representative to implement pro<;edures to prevent similar problems in the future. FEMA requests


                                                                                            ww ..... fcolUI.,,,,,




www.oig.dhs.gov                                                     11                                                                           OIG-12-106

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              this recommendation be resolved and open pending implementation of the stated corrective action
              plan.

              Recommendation #2: Review the qualifications of other staff bil1ed on the task order and detennine
              whether additional billing adjustments are warranted.

              FEMA Response: FEMA concurs with this recommendation to review the qualifications of other
              staff billed on the task order to detenninc if they mect the education and employment experience
              qualifications as set forth in the McKing GSA Schedule.

              Within 90 days of receipt of the final report and corrective action plan via the grantee notification
              memorandum. FEMA will request that McKing Consulting Corporation provide a report on the
              qualifications of other staff billed on the task order to detennine if they meet the education and
              employment experience qualifications. FEMA will provide a report to the 010 regarding any
              additional billing adjustments necessary within 30 days of receiving this infonnation from McKing.
              In future contracting, FEMA will request this infonnation prior to award. FEMA requests this
              recommendation be considered resolved and open pending implementation of the stated corrective
              action plan.

              Recommendation #3: Review MCKing's recipient reporting errors and determine whether a
              corrected final recipient report should be resubmitted.

              FEMA Response: FEMA concurs with this recommendation that McKing Consu1ting Corporation
              submit a corrected final recipient report. Within 90 days of receipt of the final report and corrective
              action plan via the grantee notification memorandum, FEMA will request that the grantee provide a
              report. FEMA requests this recommendation be resolved and open pending implementation of the
              stated corrective action plan,

              Again, we thank you for the opportunity to review and comment on the recommendations
              concerning your draft report. Please do not hesitate to contact our Audit Liaison Office point of
              contact, Gina Norton at 202~646w4287. with any questions or concerns regarding our response.




                                                                   2




www.oig.dhs.gov                                               12                                                        OIG-12-106

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   OIG Analysis of Employees Billed to Task Order Who Did Not
   Meet Education and Employment Experience Standards and
   McKing Comments
   The amount of questioned employee labor costs is summarized below and is followed
   by the basis for each exception.

         Employee                        Labor Category                   Amount
         Employee 1          Grants Quality Control Specialist-II         $51,144
         Employee 2          Administrative Assistant-II                   20,909
         Employee 3          Administrative Assistant-II                    6,004
         Employee 4          Administrative Assistant-III                  20,069
                             Statistician-IV                               18,734
         Employee 6          Applications Programmer-V                     26,313
                                                                         $143,173

   See end of appendix for additional abbreviations.

   Employee Number 1

   Labor Category Billed: Grants Quality Control Specialist-I (GQCS-I)

   Education and Employment Experience upon Hiring: The employee was hired in March
   2005 as a Data Entry Specialist and promoted to a GQCS-I in September 2007. Employee
   was a high school graduate and attended college. The employee had 1 year of
   employment experience when hired.

   OIG Analysis: The employee was billed as a GQCS-I in July 2008. Per McKing’s GSA
   Schedule, a GQCS-I will have a bachelor’s degree (BD) with 4 years of experience or a
   high school diploma (HSD) with 8 years of experience. Four years of experience (3 years
   with McKing plus 1 year prior to McKing) at the time of billing did not meet the 8-year
   standard for GQCS-I with HSD.

   McKing Comments: The employee attended 2 years of college prior to being promoted
   to GQCS-I. McKing accepts 2 years of college credits as equivalent to an associate’s
   degree (AD) under its GSA Schedule. An AD is generally considered halfway to a BD, and
   therefore the employment experience under McKing’s GSA Schedule would
   proportionally be lowered to 6 years of employment experience. Even if not initially

www.oig.dhs.gov                               13                                    OIG-12-106

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   qualified as a GQCS-I, the employee became qualified for the position in 2010 (6 years of
   employment experience). The employee possess all of the skills necessary to qualify as
   a GQCS-I.

   OIG Response: We do not believe that 2 years of college study should be considered
   equal to an AD because 2 years of college course work may not result in the completion
   of courses necessary for an AD. Therefore, it should not justify a reduction in the
   employment experience standard. Also, while the employee may possess the skills
   necessary to accomplish the tasks, the individual did not meet the qualifications
   established by McKing as necessary for the rate billed.

   Employee Number 2

   Labor Category Billed: Administrative Assistant-II (AA-II)

   Education and Employment Experience upon Hiring: The employee was hired part time
   in May 2006 as an Administrative Assistant-I. Employee had a HSD and had attended 1
   year of college. Employee’s prior work experience was outdoor summer employment.

   OIG Analysis: The employee was billed as an AA-II in July 2008. Per McKing’s GSA
   Schedule, an AA-II will have an AD with 1 year of experience or an HSD with 4 years of
   experience. The employee with 3 years of experience (2 years with McKing and 1 year
   (3 summers) prior to McKing) at time of billing did not meet the experience standard for
   an AA-II with HSD.

   McKing Comments: An AD is generally considered to be 2 years at a college. The
   employee had completed 1½ years of college credits prior to being billed as an AA-II,
   which McKing considers as three-fourths of an AD under our GSA Schedule. Therefore,
   proportionately, McKing considers 1½ years of employment experience as necessary to
   fulfill the AA-II requirements. The employee was hired as an Administrative Assistant-I
   in May 2006 and promoted to an AA-II in December 2007. McKing considered the
   employee qualified with 1½ years employment experience plus 1½ years college credits.

   OIG Response: We do not believe that attending college for 1½ years should be
   considered three-fourths of an AD because there is no assurance that the courses taken
   would result in any degree. Therefore, it should not justify a reduction in the
   employment experience standard. The employee did not meet the employment
   experience standard at the time of billing.




www.oig.dhs.gov                                14                                    OIG-12-106

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Employee Number 3

   Labor Category Billed: Administrative Assistant-II (AA-II)

   Education and Employment Experience upon Hiring: The employee was hired March
   2006 as an AA-II. The employee was a high school graduate and had attended college.
   Employee had 3 years of employment experience when hired.

   OIG Analysis: The employee was billed as an AA-II in May 2006. Per McKing’s Schedule,
   an AA-II will have an AD with 1 year of experience or a HSD with 4 years of experience.
   The employee with an HSD and 3 years of experience did not meet the experience
   standard for an AA-II with an HSD.

   McKing Comments: An AD is generally considered 2 years at a college. Therefore,
   McKing accepts 2 years of college credits as equivalent to an AD under our GSA
   Schedule. At the time the employee was hired as an AA-II in March 2006, the employee
   had attended 2½ years of college. The employee had also worked as an administrative
   assistant with a Federal agency from August 2004 to September 2005, giving the
   employee the requisite 1 year of employment experience.

   OIG Response: As indicated in our analyses above, we do not believe that taking college
   courses should be equated with obtaining a degree, and therefore it should not be used
   as a justification to reduce the employment experience standard. The employee did not
   meet the employment experience standard at the time of billing.

   Employee Number 4

   Labor Category Billed: Administrative Assistant-III (AA-III)

   Education and Employment Experience upon Hiring: The employee was hired in
   October 2004 as an Administrative Specialist. The employee had an HSD and had 1½
   years of work experience when hired.

   OIG Analysis: The employee was billed as an AA-III in May 2006. Per McKing’s GSA
   Schedule, an AA-III will have an AD with 6 years of experience or an HSD with 9 years of
   experience. The employee had 3½ years of experience (2 years with Cabezon and 1½
   years of prior work experience) at the time of the billing, and therefore did not meet the
   experience standard for an AA-III with an HSD.

   McKing Comments: The employee is a carryover from the previous FEMA contract in
   which the employee was billed as an AA-II. Employee had acquired knowledge of

www.oig.dhs.gov                                15                                     OIG-12-106

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   operational procedures and existing administrative support procedures. At the time of
   billing, the employee’s prior experience was considered to provide the agency with a
   level of continuity and inherent understanding of the contract’s administrative
   requirements. Even if not initially qualified as an AA-III, the employee became qualified
   for the position in November 2008 with 9 years of employment experience.

   OIG Response: The employee lacks the requisite number of years of experience to be
   billed as an AA-III. In addition, FEMA’s Contracting Officer was unable to provide a copy
   of the waiver referred to by McKing.

   Employee Number 5

   Labor Category Billed: Statistician-IV (S-IV)

   Education and Employment Experience upon Hiring: The employee was hired in May
   2006 as an Administrative/Executive Assistant. The employee had a BD in social science
   and 14 years of experience in general administrative duties when hired.

   OIG Analysis: The employee was billed as an S-IV in December 2010. Per McKing’s GSA
   Schedule, an S-IV will have a BD with 8 years of experience. The employee, with a BD in
   social science, does not in our opinion meet the education requirement.

   McKing Comments: The employee has an HSD and college course work that has
   included relevant subject areas, such as economics, algebra, and information literacy
   research methods. The employee worked at a consulting company for 2 years operating
   as an administrator with duties that included data gathering, report generation, and
   analysis of client information. Employee’s experience supporting government clients
   included the creation of statistical projects such as the development of parity studies.
   The employee’s education and relevant past experience satisfied the requirements of
   the functional needs of the position.

   OIG Response: McKing’s GSA Schedule includes three levels of Statisticians: 6, 4, and 3.
   Level 6 has a minimum education requirement of an advanced degree (master’s degree
   or higher), and levels 4 and 3 have a minimum education requirement of a BD. Although
   McKing’s GSA Schedule does not indicate specific majors for its labor categories, it
   describes a McKing statistician as having the academic and practical knowledge to
   (1) determine the mathematical principles involved and the most efficient methodology
   for solutions of problems; (2) act as an adviser or consultant on application of
   mathematical analysis to scientific and engineering problems; (3) gather and analyze
   collected information according to established statistical methods; and (4) prepare
   reports, charts, tables, and other visual aids. In our opinion, the employee did not meet

www.oig.dhs.gov                                16                                     OIG-12-106

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   the education standard established by McKing in its GSA Schedule for a midlevel
   statistician.

   Employee Number 6

   Labor Category Billed: Applications Programmer-V (AP-V)

   Education and Employment Experience upon Hiring: The employee was hired in
   February 2006 as an Applications Developer. The employee had an AD in computer
   programming and had 7 years of IT experience when hired.

   OIG Analysis: The employee was initially billed as a Senior Website Developer, but was
   billed as an AP-V in July 2009. Per McKing’s Schedule, an AP-V will have a master’s
   degree with 10 years of experience or a BD with 12 years of experience. The employee,
   with an AD, did not meet the minimum education requirement for an AP-V at the time
   of billing.

   McKing Comments: The employee was billed as a Senior Website Developer in May
   2006. For the Senior Website Developer labor category, the education and employment
   experience is a BD with 4 years of experience or an HSD with 8 years of experience. The
   employee possessed an AD in a related field. An AD is generally considered 2 years at a
   college, halfway to a BD, and therefore the employment experience under McKing’s GSA
   Schedule would proportionally be lowered to 6 years of employment experience. It is
   believed that the employee met the requisite education and experience qualifications
   for the applicable labor category with the employee’s 7 years of experience as noted in
   auditor comments. The employee was also a carryover from the prior FEMA contract in
   which the employee was a Senior Website Developer. FEMA granted a waiver of GSA
   requirements to allow employees to continue serving in the same position as in the
   prior FEMA contract to ensure continuity in the transition between contracts, even if
   they did not meet the GSA labor category requirements.

   OIG Response: We agree that employee qualified as a Senior Website Developer but
   not as an AP-V. Also, FEMA’s Contracting Officer was unable to provide a copy of the
   waiver referred to by McKing.

   Abbreviations

       AA-II         Administrative Assistant-II
       AA-III        Administrative Assistant-III
       AP-V          Applications Programmer-V
       AD            associate’s degree

www.oig.dhs.gov                              17                                      OIG-12-106

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                18                    OIG-12-106
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix D
   Major Contributors to This Report
   Roger LaRouche, Audit Director
   Jerome Fiely, Audit Manager
   Puja Patel, Program Analyst
   Maureen Duddy, Referencer




www.oig.dhs.gov                           19                    OIG-12-106

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Departmental Recovery Act Coordinator
   Administrator, Federal Emergency Management Agency
   GAO/OIG Audit Liaison Official, Federal Emergency Management Agency

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             20                             OIG-12-106

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
